   April 6, 2005




Acquisition
Acquisition of Targets at the Missile
Defense Agency
(D-2005-048)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
BMDS                  Ballistic Missile Defense System
JPO                   Joint Project Office
MDA                   Missile Defense Agency
                            INSPECTOR GENERAL
                            DEPARTMENT O F DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON. VIRGINIA 22202-4704




                                                                            April 6,2005

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY


SUBJECT: Report on Acquisition of Targets at the Missile Defense Agency
         (Report No. D-2005-048)

        We are providing this report for infomlation and use. No written response to this
report was required, and none was received. Therefore, we are publishing this report in
final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Harold C. James at (703) 604-9088 (DSN 664-9088) or Mr. John Meling at (703)
604-9091 (DSN 664-9091). The team members are listed inside the back cover. See
Appendix B for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:


                                     -       /LI&,',q
                                            Mary L. Ugone
                                                                  l(s~1.C~
                                     Ass~stantInspector General
                               Acquisition and Technology Management
           Office of the Inspector General of the Department of Defense
Report No. D-2005-048                                                        April 6, 2005
   (Project No. D2004AE-0154)

             Acquisition of Targets at the Missile Defense Agency

                                  Executive Summary

Who Should Read This Report and Why? Missile Defense Agency program managers
who are responsible for the acquisition and management of targets used to test the
Ballistic Missile Defense System should be interested in this report. This report
addresses allegations made to the Defense Hotline on the effectiveness of the process that
the program managers use to acquire and manage the targets.

Background. This audit was performed in response to allegations made to the DoD
Hotline in March 2003. This report addresses 10 allegations about the effectiveness of
the process that the Missile Defense Agency used to manage and acquire targets. A
separate report will address the allegations concerning the process that the Missile
Defense Agency used to define Ballistic Missile Defense System capabilities.

The Missile Defense Agency Targets and Countermeasures Directorate designs,
develops, and provides ballistic missile targets to test the Ballistic Missile Defense
System. The Directorate’s FY 2005 budget consists of an estimated $305 million in
research, development, test, and evaluation funds. This budget is supplemented by an
estimated $167 million in research, development, test, and evaluation funds from
elements of the Ballistic Missile Defense System.

The 10 allegations concerning target acquisitions involved Missile Defense Agency
management in 4 broad areas:

       •    duplicate management effort by two organizations within the Missile Defense
            Agency;

       •    use of a targets prime contractor increased target acquisition costs and
            threatened the job security for employees at the Missile Defense Targets Joint
            Program Office;

       •    reassignment of the Targets and Countermeasures Program to the Air Force
            resulted in less effective management of target acquisitions because the Air
            Force had less experience in acquiring targets and the Air Force Program
            Manager had competing responsibilities to the Air Force and the Missile
            Defense Agency; and

       •    inefficient use of targets.

Results. We substantiated one allegation and did not substantiate nine allegations.
Although we substantiated the allegation that target funding significantly increased after
the award of a targets prime contract, the cost increases were necessary initial expenses
for developing common target product lines to reduce overall target acquisition costs for
multiple Ballistic Missile Defense System elements. Since the DoD Hotline received the
allegations in March 2003, the Missile Defense Agency significantly revised its
management practices for acquiring and using targets to test the elements of the Ballistic
Missile Defense System. Additionally, the Missile Defense Agency reorganized to
centrally manage the Targets Program and, as a result, was able to retain experienced
managers. When fully implemented, the revised management practices and the
reorganization should reduce target costs and acquisition cycle time.

Management Comments. We provided a draft of this report on March 4, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2

Finding
     Results of Review of Allegations Concerning the Missile Defense
        Agency’s Target Acquisition Program                            3

Appendixes
     A. Scope and Methodology                                          12
     B. Report Distribution                                            13
Background
    We performed this audit in response to allegations made to the DoD Hotline. The
    allegations concerned the processes that the Missile Defense Agency (MDA) used
    to define required Ballistic Missile Defense System (BMDS) capabilities and to
    manage and acquire targets. This report addresses the 10 allegations that were
    made concerning the process used to manage and acquire targets at MDA. A
    separate report will address the allegations made concerning the process that the
    MDA used to define BMDS capabilities.

    National Missile Defense Policy. On July 22, 1999, the President signed the
    National Missile Defense Act of 1999 (Public Law 106-38), which requires that
    the United States deploy an effective national missile defense system capable of
    defending the territory of the United States against limited ballistic missile
    attacks. The President provided further direction in National Security Presidential
    Directive 23, “National Policy on Ballistic Missile Defense,” December 16, 2002.
    Presidential Directive 23 requires that the Secretary of Defense initially deploy a
    set of missile defense capabilities in 2004. Presidential Directive 23 also states
    that the Secretary of Defense is to develop and deploy a BMDS with the best
    technologies available.

    Missile Defense Agency. On January 2, 2002, the Secretary of Defense directed
    MDA (formerly the Ballistic Missile Defense Organization) to develop and field a
    single integrated BMDS to protect the United States, its deployed forces, friends,
    and allies against ballistic missiles of all ranges in all phases of flight.
    Additionally, the Secretary of Defense emphasized the need to field elements, or
    key components of the BMDS, such as the Patriot Advanced Capability-3, the
    Ground-Based Midcourse Defense, and the Terminal High Altitude Area Defense
    as soon as practicable and to improve the BMDS with incremental upgrades over
    time.

    To accomplish those directions, MDA implemented a capabilities-based
    acquisition strategy using a series of biennial developmental blocks. Each block
    permits the insertion of newly developed component capabilities. The first
    biennial development block, Block 2004, occurs during 2004 and 2005. As of
    January 2005, MDA had defined developmental capabilities planned for biennial
    development out to Block 2012, which will occur during 2012 and 2013. MDA
    will build upon the capabilities developed during previous blocks, and each
    successive block will provide increasing levels of capability to counter ballistic
    missiles of all ranges and complexity.

    Ballistic Missile Targets. In developing the incremental blocks, MDA uses
    flight tests of key BMDS components against targets representing ballistic
    missiles to verify component design performance and assess missile defense
    capabilities. The MDA Targets and Countermeasures Directorate designs,
    develops, and provides ballistic missile targets (targets) to test the BMDS.
    Targets consist of the launch systems, payloads, reentry vehicles, and avionics
    systems that MDA designs to simulate characteristics of real world ballistic
    missile threats. The Targets and Countermeasures Directorate budget for


                                         1
    FY 2005 consists of an estimated $305 million in research, development, test, and
    evaluation funds. The Directorate’s budget is supplemented by an estimated
    $167 million in research, development, test, and evaluation funds from the
    elements of the BMDS.

    Targets and Countermeasures Prime Contract. On December 9, 2003, MDA
    awarded a prime contract to Lockheed Martin Space Systems to provide systems
    engineering and integration; development, acquisition, range, and launch services;
    and program management for the Targets and Countermeasures Program (the
    Targets Program). The initial 4-year contract was valued at $210 million, with
    potential contract growth to $4.6 billion over 10 years.


Objectives
    The overall audit objective was to evaluate the adequacy of the process that MDA
    uses to manage and acquire targets. Specifically, we evaluated whether MDA
    effectively and economically acquired targets to support testing of the BMDS
    elements. See Appendix A for a discussion of the audit scope and methodology.




                                        2
            Results of Review of Allegations
            Concerning the Missile Defense Agency’s
            Target Acquisition Program
            We substantiated one allegation and did not substantiate nine allegations.
            Although we substantiated the allegation that the annual target budget had
            significantly increased after the award of a prime contract for targets, the
            cost increases were necessary initial expenses for developing common
            target product lines to support testing that should reduce overall target
            acquisition costs of the various BMDS elements. Since the DoD Hotline
            received the allegations in March 2003, MDA significantly revised its
            practices for acquiring and managing targets to test the BMDS elements.
            Additionally, the MDA reorganized to centrally manage the Targets
            Program and, as a result, was able to retain experienced managers. When
            fully implemented, the revised management practices and the
            reorganizations should reduce target costs and acquisition cycle time.


Management Areas of Allegations
     The complainant’s 10 allegations concerning target acquisitions involved MDA
     management in the following 4 broad areas:

            •   duplicate management effort by two organizations within MDA;

            •   use of a targets prime contractor increased target acquisition costs and
                threatened the job security for employees at the Missile Defense
                Targets Joint Project Office (JPO);

            •   reassignment of the Targets Program to the Air Force resulted in less
                effective management of target acquisitions because the Air Force had
                less experience in acquiring targets and the Air Force Program
                Manager had competing responsibilities to the Air Force and the
                MDA; and

            •   inefficient use of targets

     Discussion of the individual allegations and the audit results follow.


Duplication of Effort
     Allegation 1. The complainant alleged that the MDA Targets and
     Countermeasures Directorate performed the same functions as the Missile
     Defense Targets JPO and used textbook approaches to acquisition that did not
     allow for meeting required test schedules for BMDS elements. Further, the


                                             3
complainant alleged that acquisition personnel from the Targets and
Countermeasures Directorate did not understand Army doctrine and operational
requirements documents, lacked target testing experience, and did not listen to the
advice of personnel having target testing experience.

Audit Results. We did not substantiate the allegation. The transition from
Missile Defense Targets JPO to the Targets and Countermeasures Directorate did
not result in a duplication of effort, use of “text book” approaches to target
acquisition, delays in schedule, or use of inexperienced personnel.

         Reassignment of Target Management Responsibilities. Before
October 26, 2001, the Ballistic Missile Targets Joint Project Office (Army
Targets JPO), an organization reporting to the Army Space and Missile Defense
Command, was responsible for managing and acquiring targets used to test
ballistic missile defense systems in development. Effective October 26, 2001, the
Deputy Commander of the Army Space and Missile Defense Command
transferred those responsibilities for targets from the Army to the Ballistic Missile
Defense Organization, the predecessor to MDA. MDA designated the Army
Targets JPO as the Missile Defense Targets JPO. Also, in October 2001, MDA
reorganized and assigned the Missile Defense Targets JPO as part of the Targets
and Countermeasures Directorate. Accordingly, at any point in time, only one
organization was responsible for managing and acquiring targets to support
testing of BMDS elements.

         MDA Targets and Countermeasures Directorate Approach to Target
Acquisition. Since the Targets and Countermeasures Directorate was established
in October 2001, it revised its strategy for acquiring targets. Previously, the
Missile Defense Targets JPO acquired targets through multiple contracts
administered through the Army Space and Missile Defense Command and the Air
Force Space and Missile Systems Center in which it specified the development of
individual target designs to satisfy program office requests to be used in testing.
In its revised acquisition strategy, the Targets and Countermeasures Directorate
specifies the use of a prime contractor to provide common programmatic,
engineering, and material procurement processes that will provide a standardized
set of target components and product lines for use in testing multiple BMDS
elements. When developed, the standardized set of target components and
product lines will allow the Targets and Countermeasures Directorate to reduce
the time needed for acquiring targets and overall target costs for BMDS element
testing.

         Timely and Successful Targets. MDA conducted 10 flight tests using
targets between February 2003 and August 2004. Targets acquired by the Targets
and Countermeasures Directorate for the 10 flight tests satisfied the test
objectives 90 percent of the time and partially satisfied the objectives 10 percent
of the time. Four of those flight tests directly supported BMDS elements and the
remaining six flight tests supported experiments that the Targets and
Countermeasures and the Test and Assessment Directorates conducted to gather
data. Targets acquired for the four BMDS element flight tests were available to
support BMDS element testing and performed as required. Although two of the
four tests did involve 1-month schedule delays, staff at the Arrow Program
Office, the BMDS element that was conducting the tests, reported that staff at the


                                      4
           Targets and Countermeasures Directorate discussed the delays 1 year before the
           tests and that the delays did not affect the Arrow Program development effort.

                   Understanding Army Doctrine and Operational Requirements
           Documents. In January 2002, the Secretary of Defense canceled the operational
           requirements documents for the BMDS elements that had been prepared by the
           Army and directed MDA to establish a new process to set capability performance
           standards. The MDA worked with the MDA Liaison Team within the Army
           Program Executive Office for Missiles and Space to ensure that the MDA
           understood the Army doctrine that was used to prepare the canceled Army
           operational requirements documents. The MDA Liaison Team stated that the
           MDA adequately considered Army doctrine and requirements presented in the
           canceled Army operational requirements documents when MDA established the
           new capabilities documents for the BMDS elements. An example of the MDA
           consideration of Army doctrine and requirements is that the MDA, in the
           “Terminal High Altitude Area Defense System Specification,” April 25, 2003,
           specified the same types of warheads for the system to engage, the area to defend,
           and the range to detect and track that the Army had previously included in the
           “Operational Requirements Document for the Theater High Altitude Area
           Defense,” March 13, 2000.

                   Using Experienced Target Acquisition Personnel. MDA did use
           experienced personnel to acquire targets. Specifically, MDA used the same
           experienced personnel who had worked at the Army Targets JPO to support the
           Targets and Countermeasures Directorate.1 Additionally, MDA revised its
           process for defining target requirements to include input from the MDA Systems
           Engineering and Test and Assessment Directorates on target engineering and
           testing requirements. Further, MDA solicits the BMDS elements who request the
           targets for their input on target requirements.


Use of a Prime Contractor to Acquire Targets
           Allegation 2. The complainant alleged that the use of a prime contractor to
           acquire targets cost the MDA from $400 to $500 million per year, which is double
           the annual amount that MDA incurred before it started to use a prime contractor.

           Audit Results. We substantiated the allegation. MDA awarded a prime contract
           for the Targets Program to Lockheed Martin Space Systems on December 9,
           2003. The contract cost was for $210 million over a 4-year period, with a
           potential contract value of $4.6 billion over 10 years. The average contract cost,
           if all options were exercised, would be $464 million per year, more than double
           the FY 2003 Targets and Countermeasures Directorate budget of $197 million.
           The prime contract reflects the MDA movement away from developing individual
           targets for each BMDS element to developing common target product lines to

1
    Experienced personnel were Army military and civilian personnel from the Space and Missile Defense
    Command who previously supported the Army Targets JPO and who now support the MDA Targets and
    Countermeasures Directorate.



                                                    5
support multiple BMDS elements, which will reduce acquisition cycle time,
support the MDA capability-based acquisition program, and respond to the
anticipated increase in flight tests using targets to support the test requirements
for BMDS elements. As a result, the Targets and Countermeasures Directorate
target budget did increase because of systems engineering work needed by the
prime contractor to develop the common target product lines and the costs to
acquire an initial target inventory. MDA stated that overall target costs should
decrease once the initial product lines are developed and the inventory is
established.

Allegation 3. The complainant alleged that the use of the prime contractor to
acquire targets threatened the job security of Missile Defense Targets JPO
personnel.

Audit Results. We did not substantiate the allegation. We did not find evidence
that the MDA award of the prime contract resulted in the involuntary loss of jobs
for personnel in the Missile Defense Targets JPO. After the award of the prime
contract, personnel in the Missile Defense Targets JPO continued to play a
significant role in the Targets Program through an MDA matrix agreement with
the Army Space and Missile Defense Command.

The Army Space and Missile Defense Command Civilian Personnel Office
identified 11 former personnel in the Missile Defense Targets JPO who had left
the Targets and Countermeasures Directorate after the reorganization of the
targets office and at the time MDA awarded the prime contract for targets. Based
on discussion with staff at the Army Space and Missile Defense Command
Civilian Personnel Office and review of official personnel files, we determined
that five of the former personnel in the Missile Defense Targets JPO retired
voluntarily and one voluntarily left DoD for a position at another Government
agency. We determined from the remaining five DoD personnel that their
decision to find other employment was also voluntary. The five former personnel
from the Missile Defense Targets JPO stated that while they had felt some
concerns for job security when MDA was reorganizing the targets office and
awarding the prime contract, job security was not the primary factor in their
decisions to leave Missile Defense Targets JPO. Primary factors for their
decisions to leave Missile Defense Targets JPO were promotion opportunities,
decreased job satisfaction, and marriage.


Reassignment of the Targets Program to the Air Force
Allegation 4. The complainant alleged that the reassignment of the Targets
Program to the Air Force Space and Missile Systems Center was a poor decision
because personnel at the Space and Missile Systems Center had little or no
experience in acquiring targets that were representative of short-range and
medium-range missiles.

Audit Results. We did not substantiate the allegation. MDA did not reassign
management of the Targets Program to the Air Force Space and Missile Systems
Center. Under the provisions of the draft memorandum of agreement, “Target


                                      6
           Support for Ballistic Missile Defense Program,” between the MDA, the Air Force
           Space and Missile Systems Center, and the Army Space and Missile Defense
           Command, the Targets and Countermeasures Directorate retained overall
           responsibility for the management and execution of the Targets Program, and the
           Air Force and Army provided support. The Air Force Space and Missile Systems
           Center, in its support role, assisted the Targets and Countermeasures Directorate
           in developing the targets acquisition strategy and requirements, executing the
           Targets Program, and serving as lead for target integration and launch vehicles.
           Although the memorandum of agreement was not signed as of March 2005, the
           MDA and the Air Force stated that their organizations had implemented
           provisions in the draft memorandum.

           Further, the Air Force Space and Missile Systems Center did have experience in
           acquiring targets that were representative of short-range and medium-range
           missiles. Before awarding the prime contract, MDA procured targets through
           contracts administered by the Air Force Space and Missile Systems Center’s
           Rocket Systems Launch Program. The Rocket Systems Launch Program
           managed deactivated ballistic missiles and provided launch services, including
           targets, to support research and development within DoD and other Government
           agencies.

           Allegation 5. The complainant alleged that the Air Force Rocket Systems
           Launch Program Manager was unable to effectively manage the MDA Targets
           Program because of his retaining responsibility as the Air Force Rocket Systems
           Launch Program Manager.

           Audit Results. We did not substantiate the allegation. Although the Air Force
           Rocket Systems Launch Program Manager did have responsibility for both the
           Air Force Rocket Systems Launch Program and support for the MDA Targets
           Program, we did not find evidence that the program manager was ineffective in
           managing his Target Program responsibilities. To ensure that the program
           manager effectively performed his Target Program responsibilities, the Targets
           and Countermeasures Directorate and the Space and Missile Systems Center
           shared supervisory and rating responsibilities for the Program Manager; and the
           Director of the Targets and Countermeasures Directorate was the first-level rating
           official for the Rocket Systems Launch Program Manager.


Use of Targets
           Allegation 6. The complainant alleged that since the Test and Assessment
           Directorate was given responsibility to coordinate target requirements between
           BMDS elements and the Targets and Countermeasures Directorate, it had
           approached each test mission2 as a separate event and did not consider that the

2
    Test missions are integrated flight tests or risk reduction tests used to test the performance of the BMDS
    elements. Integrated flight tests are conducted with missile interceptors to test BMDS element
    capabilities (including the ability to hit a target missile). Risk reduction tests are conducted without an
    interceptor to gather data for BMDS element sensors.



                                                         7
same basic target, with minor adjustments, could be acquired to meet test
objectives for different test scenarios.

Audit Results. We did not substantiate the allegation. While the Test and
Assessment Directorate had the responsibility to coordinate target requirements
between BMDS elements and the Targets and Countermeasures Directorate at the
time of the allegation in March 2003, the Director, MDA transferred those
responsibilities to the Systems Engineering Directorate in December 2003. The
Director, MDA also tasked the Systems Engineering Directorate to develop a plan
to raise the target requirements definition process to the overall BMDS level,
rather than to define target requirements for individual BMDS elements.

The Targets and Countermeasures Directorate had already awarded a prime
contract to develop a standardized set of target components with capabilities to
satisfy target requirements for the various BMDS elements to conduct future test
scenarios. Specifically, the prime contract statement of work required the
contractor to minimize the number of available targets by developing flexible or
common components that would meet test objectives for different test scenarios.

Allegation 7. The complainant alleged that the Test and Assessment Directorate
did not coordinate target requirements with Missile Defense Targets JPO, the
organization that acquires the targets.

Audit Results. We did not substantiate the allegation. The Test and Assessment
Directorate and Missile Defense Targets JPO, now the MDA Targets and
Countermeasures Directorate, are members of the MDA targets working group
that develops capability requirements for BMDS targets.

As discussed in the audit results for Allegation 6, the Director, MDA tasked the
Systems Engineering Directorate to develop a plan to define target requirements.
The new target requirements and certification process included input from the
Systems Engineering Directorate, the Test and Assessment Directorate, the
Targets and Countermeasures Directorate, and the BMDS elements through a
targets working group. The targets working group provides oversight for target
requirements requested by the various BMDS elements. Specifically:

       •   the Systems Engineering Directorate has the lead in providing
           BMDS-level target requirements,

       •   the Test and Assessment Directorate provides input on test resource
           requirements,

       •   the Targets and Countermeasures Directorate provides input on
           potential target configurations, and

       •   the BMDS elements provide element-level target requirements.

Allegation 8. The complainant alleged that MDA added the Test and Assessment
Directorate as another layer of approval for the Target System Requirements
Document that resulted in MDA not meeting its element test schedules.



                                    8
           Audit Results. We did not substantiate the allegation. Although the Test and
           Assessment Directorate once was responsible for coordinating the review of the
           Target System Requirements Document, it no longer had that responsibility. As
           discussed earlier, the Director, MDA tasked the Systems Engineering Directorate
           to develop a new process to define target system requirements. The Systems
           Engineering Directorate, in the draft documentation for the new process, did not
           add another layer of approval; it changed the emphasis from defining target
           requirements for individual BMDS elements to defining target system
           requirements at the BMDS level. Additionally, the Systems Engineering
           Directorate assumed responsibility for coordinating preparation of the Target
           System Requirements Document from the Test and Assessment Directorate.
           Under the previous process, the BMDS element developed the Target System
           Requirements Document. Then, after gaining concurrence from a working group
           led by the Test and Assessment Directorate and consisting of BMDS elements
           and directorates, the working group issued the requirements document. In the
           new process, the Systems Engineering Directorate leads the targets working
           group and issues the Target Systems Requirement Document, after gaining
           concurrence from the other elements and directorates.

           To meet test schedules, the targets acquired by the Targets and Countermeasures
           Directorate for the four BMDS element flight tests conducted between
           February 2003 and August 2004 were available to support scheduled testing of
           BMDS elements and performed as required.

           Allegation 9. The complainant alleged that since the Test and Assessment
           Directorate assumed Missile Defense Targets JPO responsibilities for range
           facilities and environmental analysis, those costs3 increased from $2 million to
           $15 million because MDA had inexperienced personnel performing the
           environmental analyses.

           Audit Results. We did not substantiate the allegation. The Test and Assessment
           Directorate’s assumption of range coordination responsibilities did not lead to a
           significant increase in costs at the range facilities. Additionally, the Test and
           Assessment Directorate’s assumption of environmental coordination
           responsibilities at the range facilities did not lead to the environmental analyses
           being performed by inexperienced personnel.

                  Range Facilities. In April 2004, the Deputy Director, MDA established
           the Pacific Range Support Team,4 chaired by the Test and Assessment
           Directorate, to act as the lead organization for range coordination. A comparison
           of range facility costs for two similar tests conducted at the White Sands Missile
           Range before and after the Test and Assessment Directorate’s assumption of
           range coordination responsibilities showed only a minimal increase in costs.

3
    Staff from the Targets and Countermeasures Directorate stated that the costs referred to in the allegation
    were range costs associated with targets.
4
    The Pacific Range Support Team consists of personnel from MDA, Vandenberg Air Force Base, Naval
    Air Warfare Center Weapons Division Point Mugu, Ronald Reagan Ballistic Missile Defense Test Site,
    Pacific Missile Range Facility, and White Sands Missile Range. The Team provided integrated planning,
    coordination, and management of range test resources and test infrastructure for MDA testing.



                                                        9
Range facility costs in October 2000 were $0.7 million while the costs in
November 2004 were $0.8 million, an increase of $0.1 million.

Personnel at the Targets and Countermeasures Directorate and the Test and
Assessment Directorate stated that costs vary at each range facility. In support,
the personnel showed us test range costs for seven MDA tests that occurred
between January 2000 and December 2004 at four test ranges. For five tests that
occurred at three test ranges, average range facility costs ranged from $0.7 million
to $2 million. The Kodiak Launch Complex was the only range facility with costs
similar to those cited in the allegation. The range facility costs for two tests that
were conducted at the Kodiak Launch Complex in November 2001 and December
2004 for the Ground-Based Midcourse Defense Element were significantly
higher, $9 million and $29 million, than at the other test range facilities.
Personnel at the Targets and Countermeasures Directorate stated that use of the
Kodiak Launch Complex was necessary for the two tests because of its location
and advanced technology that was not available at the other range facilities.
Although the test range costs at the Kodiak Launch Complex were higher than at
other test range facilities, those costs occurred before and after the Test and
Assessment Directorate assumed responsibility for range facilities.

       Environmental Analysis. In March 2001, the Director, MDA designated
the Test and Assessment Directorate as the MDA Environmental Executive,
responsible for ensuring environmental compliance at the range facilities. The
Test and Assessment Directorate and the Targets and Countermeasures
Directorate indicated that environmental analysis at the range facilities could be
completed by military environmental organizations at the discretion of the
program manager for each BMDS element. For the program managers that chose
the Test and Assessment Directorate to perform the environmental compliance
work, the Test and Assessment Directorate awarded a contract to ICF Consulting
for environmental analysis work. ICF Consulting has 34 years of experience in
performing environmental analyses for numerous DoD and Federal Government
programs.

Allegation 10. The complainant alleged that the Test and Assessment Directorate
did not understand current target capabilities or the time and resources necessary
to acquire targets needed to satisfy test objectives planned for BMDS elements.

Audit Results. We did not substantiate the allegation. The Test and Assessment
Directorate was no longer the primary MDA organization responsible for
formulating target capabilities and acquiring targets. The targets working group,
consisting of the Systems Engineering Directorate, the Test and Assessment
Directorate, the Targets and Countermeasures Directorate, and the BMDS
elements, now develops target requirements for the various BMDS elements.

For the 10 BMDS tests performed from February 2003 through August 2004, the
targets acquired by MDA satisfied the test objectives 90 percent of the time and
partially satisfied test objectives 10 percent of the time.




                                     10
Conclusion
    Since March 2003, when the allegations were made to the DoD Hotline, MDA
    restructured the organizations that manage the Targets Program and significantly
    changed the acquisition strategy for targets to test the BMDS elements. MDA
    also was revising its target requirement and certification process to define target
    capabilities at the BMDS level, using the knowledge and experience of multiple
    organizations that participate in conducting BMDS element tests. Further, MDA
    awarded a prime contract to obtain a standardized set of target components and
    product lines, which should reduce target acquisition cycle time and target costs
    and respond to increased BMDS testing requirements. Additionally, MDA
    reorganized to centrally manage the Targets Program and, as a result, was able to
    retain experienced personnel.

    In summary, MDA took actions to improve the target acquisition and
    management process and addressed concerns cited in the allegations. Because
    MDA will not fully implement all actions until Block 2006, we could not
    determine the full success of those actions on the target acquisition process.




                                         11
Appendix A. Scope and Methodology
    We evaluated whether the MDA was effectively and economically acquiring and
    managing targets to test the BMDS. We reviewed documents dated from
    October 2000 through December 2004. We reviewed MDA organization,
    program, budget, source selection, and contracting documents. We interviewed
    personnel from the Systems Engineering Directorate, the Test and Assessment
    Directorate, the Targets and Countermeasures Directorate and two BMDS
    elements: the Aegis Ballistic Missile Defense and the Arrow Program. We also
    interviewed personnel from the Army Space and Missile Command and the Air
    Force Rocket Systems Launch Program. Lastly, we interviewed former personnel
    in the Missile Defense Targets JPO who had resigned from Targets and
    Countermeasures Directorate between January 2001 and November 2004.

    We performed this audit from June 2004 through March 2005 in accordance with
    generally accepted government auditing standards. The scope was limited to the
    management control processes related to the specific allegations.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. Two electrical engineers from the Electronics
    Engineering Branch, Technical Assessment Division of the Audit Follow-up and
    Technical Support Directorate, Department of Defense Office of Inspector
    General assisted in the audit. The electrical engineers assisted the audit team by
    analyzing the systems engineering requirements supporting the target
    requirements and certification process.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD weapon systems acquisition high-risk area.


Prior Coverage
    No prior coverage has been conducted on the acquisition and management of
    targets at MDA during the last 5 years.




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Homeland Defense
Assistant Secretary of Defense for Networks and Information Integration
   Deputy Assistant Secretary of Defense for Space Program
Director, Program Analysis and Evaluation

Department of the Army
Commanding General, U.S. Army Space and Missile Defense Command, U.S. Army
  Forces Strategic Command
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Space and Missile Systems Center
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Strategic Command
Commander, U.S. Northern Command

Other Defense Organization
Director, Missile Defense Agency




                                          13
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
John E. Meling
Harold C. James
Christine L. Haynes
Brad M. Heller
Kenneth M. Pomietto
Jaime Bobbio
Bill Chang
Jacqueline Pugh
